May 28, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Mayer Brown LLP
71 South Wacker Drive
Chicago, IL 60606
United States of America
T: +1 312 782 0600
F: +1 312 701 7711
mayerbrown.com

Andrew J. Pincus
T: +1 202 263 3220
F: +1 202 263 5220
APincus@mayerbrown.com

Tully v. Okeson, No. 20-1244

Dear Mr. Harris:
On behalf of Petitioners Barbara Tully, Katharine Black, Marc Black, David Carter,
Rebecca Gaines, Elizabeth Kmieciak, Chaquitta McCleary, David Slivka, Dominic
Tumminello, and Indiana Vote By Mail, Inc., I write regarding the above-captioned
petition for a writ of certiorari.
In accordance with Supreme Court Rule 15.5, Petitioners hereby waive the 14-day
waiting period and request that the Petition and Brief in Opposition be distributed to
the Court on Tuesday, June 1, 2021 for consideration at the June 17, 2021
conference. We will submit a reply brief no later than June 1 so that it can be
distributed with the Petition and other briefs filed in this case.
Thank you for your courtesy and attention to this matter.
Sincerely,
/s/ Andrew J. Pincus
Andrew J. Pincus
cc:

Thomas M. Fisher, Counsel for Respondents

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

